<html>
<title> - H.R. 444, BACK TO WORK INCENTIVE ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
H.R. 444, BACK TO WORK INCENTIVE ACT OF 2003
_________________________________________________________


                              HEARING


                             BEFORE THE



                        COMMITTEE ON EDUCATION AND


                               THE WORKFORCE


                          HOUSE OF REPRESENTATIVES



                         ONE HUNDRED EIGHTH CONGRESS


                               FIRST SESSION
                                  ________


       HEARING HELD IN LAS VEGAS, NEVADA, FEBRUARY 18, 2003

                                  ________


                              Serial No. 108-3

                                  ________


         Printed for the use of the Committee on Education
                            and the Workforce










86-211
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                COMMITTEE ON EDUCATION AND THE WORKFORCE


                     JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin		GEORGE MILLER, California
CASS BALLENGER, North Carolina		DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan		MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California	DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware		ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas			LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	RUBEN HINOJOSA, Texas
CHARLIE NORWOOD, Georgia		CAROLYN McCARTHY, New York
FRED UPTON, Michigan			JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan		RON KIND, Wisconsin
JIM DeMINT, South Carolina		DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia			DAVID WU, Oregon
JUDY BIGGERT, Illinois			RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania	SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio			BETTY McCOLLUM, Minnesota
RIC KELLER, Florida			DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska			ED CASE, Hawaii
JOE WILSON, South Carolina		RAUL M. GRIJALVA, Arizona
TOM COLE, Oklahoma			DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada			CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota			TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas			
MARILYN N. MUSGRAVE, Colorado		
MARSHA BLACKBURN, Tennessee		
PHIL GINGREY, Georgia
MAX BURNS, Georgia


                     Paula Nowakowski, Chief of Staff
                 John Lawrence, Minority Staff Director























Table of Contents


OPENING STATEMENT OF CHAIRMAN JOHN BOEHNER, COMMITTEE ON 
EDUCATION AND THE WORKFORCE................................2

STATEMENT OF CHAIRMAN BUCK MCKEON, SUBCOMMITTEE ON 21ST CENTURY 
COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE WORKFORCE..3

STATEMENT OF CONGRESSMAN JON PORTER, COMMITTEE ON EDUCATION AND 
THE WORKFORCE..............................................4

STATEMENT OF MYLA FLORENCE, DIRECTOR, NEVADA DEPARTMENT OF 
EMPLOYMENT, TRAINING AND REHABILITATION, CARSON CITY, NV........6

STATEMENT OF ROBERT BREWER, CHAIRMAN, SOUTHERN NEVADA WORKFORCE 
INVESTMENT BOARD, LAS VEGAS, NV................................9

STATEMENT OF DEBI LINDEMENN, EMPLOYMENT SPECIALIST SUPERVISOR, 
NORTH LAS VEGAS JOBCONNECT, DEPARTMENT O F EMPLOYMENT, TRAINING 
AND REHABILITATION, LAS VEGAS, NV.............................12

STATEMENT OF ARDELL GALBRETH, DEPUTY BOARD MANAGER AND DIRECTOR 
OF OPERATIONS, SOUTHERN NEVADA WORKFORCE INVESTMENT BOARD, LAS 
VEGAS, NV.....................................................14

APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN JOHN BOEHNER, 
COMMITTEE ON EDUCATION AND THE WORKFORCE......................27

APPENDIX B - WRITTEN STATEMENT OF CONGRESSMAN JON PORTER, 
COMMITTEE ON EDUCATION AND THE WORKFORCE......................31

APPENDIX C - WRITTEN STATEMENT OF MYLA FLORENCE, DIRECTOR, NEVADA 
DEPARTMENT OF EMPLOYMENT, TRAINING AND REHABILITATION, CARSON 
CITY, NV......................................................35

APPENDIX D - WRITTEN STATEMENT OF ROBERT BREWER, CHAIRMAN, 
SOUTHERN NEVADA WORKFORCE INVESTMENT BOARD, LAS VEGAS, NV......43

APPENDIX E - WRITTEN STATEMENT OF DEBI LINDEMENN, EMPLOYMENT 
SPECIALIST SUPERVISOR, NORTH LAS VEGAS JOBCONNECT, DEPARTMENT OF 
EMPLOYMENT, TRAINING AND REHABILITATION, LAS VEGAS, NV.........51

APPENDIX F - WRITTEN STATEMENT OF ARDELL GALBRETH, DEPUTY BOARD 
MANAGER AND DIRECTOR OF OPERATIONS, SOUTHERN NEVADA WORKFORCE 
INVESTMENT BOARD, LAS VEGAS, NV................................55

Table of Indexes...............................................61












                               HEARING ON H.R. 444

                       "BACK TO WORK INCENTIVE ACT OF 2003"
________________________________________________________________


Tuesday, February 18, 2003

Committee on Education and the Workforce 

U. S. House of Representatives

Washington, D.C.





	The Committee met, pursuant to call, at 9:30 a.m., in 
Room 101, the Nevada Job Connect, 2401 Las Verdes Street, Las Vegas, 
Nevada, Hon. John A. Boehner, Chairman, presiding.

	Present:  Representatives Boehner, Porter, and McKeon.

Chairman Boehner  XE "Chairman Boehner"  .  Good morning.  

The Committee on Education and the Workforce will come to order. 
We are meeting here today to hear testimony on H.R. 444, the Back 
To Work Incentive Act of 2003.

	I'd like to thank the Community College of Southern Nevada 
and the Southern Nevada Workforce Investment Board for hosting our 
hearing this morning.  I appreciate their hospitality, and I'm
 pleased to be here to hear from our witnesses.

	But before I begin, I want to ask for unanimous consent for 
the hearing record to remain open for 14 days to allow Members' 
statements and other extraneous materials referenced during the 
hearing today to be submitted for the official hearing record.  And 
without objection, so ordered.


OPENING STATEMENT OF CHAIRMAN JOHN BOEHNER, COMMITTEE 
ON EDUCATION AND THE WORKFORCE

	Let me start this morning by thanking my good friend and 
our new colleague, Jon Porter, for hosting us here today.  I'd also 
like to welcome all of our witnesses.  We are looking forward to
 hearing your testimony, and I appreciate the opportunity to discuss 
the Back To Work proposal before our Committee and to hear your 
thoughts on this important legislation.

During his State of the Union Address, President Bush laid out a 
comprehensive plan to speed our economic recovery and to promote long-
term job growth and investment.  His plan also provides specific 
assistance in the form of personal reemployment accounts to help 
unemployed Americans who are struggling to get back to work.

	At a time when the economy is struggling, but also improving, 
it's important that we focus on giving the unemployed more flexibility 
and choices in their employment search.  And even though the most 
recent Labor Department statistics reveal that the unemployment rate
 nationally is down to 5.7 percent, we still need to examine new ways 
to help working families across the country during the time when they 
need it the most.

	I'm particularly attuned to the situation here in the State 
of Nevada.  I have heard directly from Congressman Porter about how 
Nevada is one of the Nation's fastest growing areas, which can leave 
it particularly vulnerable when the economy turns sluggish.  A growing
 population can also mean more unemployed when the number of available 
jobs diminishes, as I think we've seen here.  So I'm pleased to say 
that President Bush and our Committee are looking at additional 
solutions beyond basic unemployment compensation that can help 
Americans when they need it the most.

	On January 29th, Congressman Porter, Congressman McKeon, 
myself, and others introduced the Back To Work Incentive Act, which 
reflects the President's plan to create personal reemployment accounts 
and help unemployed workers return to work quickly.

	The Back To Work Incentive Act represents a new and innovative
 approach to helping the unemployed get back on their feet.  And as 
President Bush has said, one worker out of work is one worker too many, 
and he believes and we believe, that this plan will help working 
families in times when they most need it.

	Workers can use their Back To Work accounts for a variety of 
different services to help them find a good job, including job training, 
child care, transportation, housing, and other expenses to help in 
finding a new job.  Recipients will be able to keep the balance of 
their $3,000 Back To Work account as a cash reemployment bonus if they 
become reemployed within 13 weeks, creating, I think, an important new
 incentive to return to work quickly.

	States such as Iowa, Pennsylvania, and Washington have tried 
these reemployment accounts, and they have shown some very promising 
success.

	One of the exciting aspects of this Back To Work account is 
that they empower individual recipients to make choices that are 
appropriate for their own circumstances.  Recipients will be able to 
create reemployment plans that help them navigate the options that 
are available, such as career counseling or training, maybe even 
training for a new profession in which they can become employed.  
By providing choice and flexibility, I think we can get people back 
into steady, good-paying jobs more quickly.

	This new benefit supplements and enhances the services that 
are already available for those who are most likely to face obstacles 
in finding and keeping new employment. These new accounts will not
 only provide the unemployed with another important benefit to help 
them find a new job, but will be efficiently administered through the 
easily accessible One-Stop Career Center system, much like the center 
we will visit after our hearing this morning.

	So I look forward to working with President Bush, Subcommittee
 Chairman McKeon, and Congressman Porter to move this proposal quickly 
and to make this innovative plan a reality for working families who 
need the help the most.


WRITTEN OPENING STATEMENT OF CHAIRMAN JOHN BOEHNER, 
COMMITTEE ON EDUCATION AND THE WORKFORCE - SEE APPENDIX A


Chairman Boehner.  I want to thank Mr. Porter for joining us and 
hosting us this morning.  And I also want to thank our Subcommittee 
Chairman, Buck McKeon.  We all sit on the Education and Workforce 
Committee and I welcome them today.

	Let me yield to the Subcommittee Chairman, Mr. McKeon, for 
an opening statement.


STATEMENT OF CHAIRMAN BUCK MCKEON, SUBCOMMITTEE ON 21ST 
CENTURY COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE

Thank you, Mr. Chairman.  It's a pleasure to be here with you and 
Mr. Porter today.

	I think it's very fitting that we are sitting here at the 
Community College of Southern Nevada and right next to a One-Stop 
Centers because both the community colleges and the One-Stop Centers 
are going to be so important in administering this program.

	I also want to compliment you on choosing Jon Porter to be 
your Representative.  He's an outstanding Member of Congress.  In just 
the short time that he has been in Washington, his leadership and the 
ability that he has to move things forward is why he was chosen to 
carry this bill.  And that's a compliment to you, the people of this
 community.  I look forward to working with him and Chairman Boehner.

	You know, we try to visit the Districts as much as we can, 
but we don't really have a lot of field hearings.  This is the first 
one we have held in this Congress. And I want to thank the Chairman 
for coming, and Congressman Porter for hosting us, and all of you for 
being here today.  Thank you very much.

Chairman Boehner  XE "Chairman Boehner"  .  The Chair recognizes 
Mr. Porter.

Mr. Porter  XE "Mr. Porter"  .  Thank you, Mr. Chairman.

	The truth is that the Chairman knew that there would 18 
inches of snow in Washington today, so he planned this field hearing 
so we could be here in the Southwest.

Chairman Boehner  XE "Chairman Boehner"  .  I wish I were that smart.

STATEMENT OF CONGRESSMAN JON PORTER, COMMITTEE ON 
EDUCATION AND THE WORKFORCE

It's an honor for me to be here and to be a new Representative of 
Nevada.  It's quite historical to hold this 3rd District seat.  I 
made it a priority during my campaign and when I was in the Nevada 
Legislature to try to bring as many folks to Nevada as possible to 
see and experience our state, to meet our families and look at the 
challenges that we have here, plus the great things we are proud of.

	I was selected to be the primary sponsor of H.R. 444, and I 
believe that's because Nevada, as the Chairman mentioned, was one of 
the hardest hit states, especially after September 11th. The tourism 
industry, not only across Nevada, but also across the country 
experienced similar challenges.  I believe that this bill, with the 
guidance of our Chairman and the Committee, and the President of the 
United States is really targeting communities like Las Vegas and 
states like Nevada, and I'm very proud of that.

	I appreciate both of my colleagues being here and I must tell 
you that they have been here many times before, and have helped me 
and helped the state.  So I applaud the Chairman and Congressman 
McKeon for sharing again with us.

	As was mentioned, we have some serious challenges here in 
Nevada, but I'll tell you this is a great opportunity to jump-start 
our community and get folks back to work.

	I spoke at our first hearing and our press conference in D.C. 
about a young lady that lives here.  She's a single mother with two 
kids, and she is currently receiving about $600 a month in unemployment
 benefits.  Imagine the challenge for this young woman in trying to 
find somebody to watch her kids so she can get out and find a job, or 
imagine the challenges of transportation for this young woman.  The 
$600 a month is helping, but barely meets her minimum needs.

	This new bill is going to give her the opportunity to find 
somebody to help watch the kids so she can go out and find a job, 
and maybe take care of her transportation needs and jump-start her 
opportunity for training to get back into the workforce. I'm very 
proud of this and look forward to working with everyone and hearing 
your testimony this morning.

	I enjoy and am honored to be a Member of Congress.  It's an 
exciting experience for me, but also a very humbling realization that 
we have some serious challenges and some pretty tough decisions to be 
made.

	Last year in Nevada the benefits of 36,000 families ran out, 
and for another 19,000 plus the extended benefits were gone.  That's 
why it's so important that we pass this bill to help our moms and 
dads and families get back to work as soon as possible.

	Thank you all very much. Again, to my colleagues, I appreciate 
your being here in Nevada.


WRITTEN STATEMENT OF CONGRESSMAN JON PORTER, COMMITTEE 
ON EDUCATION AND THE WORKFORCE - SEE APPENDIX B


Chairman Boehner  XE "Chairman Boehner"  .  Thank you, Mr. Porter.

	As Mr. McKeon mentioned, we try to get outside of Washington 
to talk to real people that operate many of the programs that we pass 
and administer the policies that we oversee.

Mr. McKeon  XE "Mr. McKeon"   is the author of the Workforce 
Investment Act with it's One-Stop Career Centers, and we believe that 
these Back To Work accounts can be another step in helping those who 
are unemployed to get back on their feet and find long-term sustainable employment.

	It's now my pleasure to introduce our witnesses this morning.

	Myla Florence is the Director of the Nevada Department of 
Employment, Training and Rehabilitation, Carson City, NV.  Director 
Florence oversees the State of Nevada's employment service and 
rehabilitation service systems.

	Robert Brewer is Chairman of the Southern Nevada Workforce 
Investment Board, Las Vegas, NV, which serves a four-county area 
surrounding Las Vegas.  In addition, he's a senior manager of corporate 
and administrative services for Southwestern Gas.  He also serves on 
the executive committee of the National Association of Workforce Boards.

	Debi Lindemenn is an Employment Specialist Supervisor with the 
Nevada Job Connect One-Stop Center in North Las Vegas.  As an employment
 specialist, she supervises a team that works with individuals seeking 
new or better employment.  And I think she will be able to help describe 
for us how these accounts will help those that are, in fact, unemployed.

	And we have Ardell Galbreth, Deputy Board Manager and Director of
 Operations for the Southern Nevada Workforce Investment Board, Las Vegas,
 NV and he'll provide perspective on the local workforce development 
system.

	We limit witness testimony to five minutes.  Since the Staff 
who runs our hearings are all in Washington, we have a timer here.  I 
think we'll just forgo the timer.  But your entire written statement 
will be made part of the record; so don't feel constrained by the five-
minute rule.  We're going to be pretty easy today.

Ms. Florence  XE "Ms. Florence"  , why don't you begin?

STATEMENT OF MYLA FLORENCE, DIRECTOR, NEVADA 
DEPARTMENT OF EMPLOYMENT, TRAINING AND REHABILITATION, 
CARSON CITY, NV

Thank you very much. Mr. Chairman and Members of the Committee on 
Education and the Workforce, for the record, I am Myla Florence, 
Director of the Nevada Department of Employment, Training and 
Rehabilitation.  Thank you for inviting me to testify today, and it's 
an honor to be here at Congressman Porter's first field hearing in 
Nevada.

	The Department of Employment, Training and Rehabilitation 
administers programs authorized under the Workforce Investment Act, 
as well as unemployment insurance, employment services, vocational
 rehabilitation, and the Nevada Equal Rights programs.

	Our department in conjunction with the Governor's State 
Workforce Investment Board and the two Local Workforce Investment 
Boards in Nevada has made a remarkable transformation of the 
publicly funded workforce system since the passage of WIA in 1998.  
We truly have a unified system in Nevada known as Nevada Job Connect. 
We are equal partners in combining the various workforce programs 
into a seamless system connecting businesses and a trained workforce.

	I want to thank the Chairman for scheduling a hearing on 
President Bush's "Personal Re-employment Account" proposal and 
Congressman Porter for bringing this hearing to Nevada 
and introducing H.R. 444, the Back To Work Incentive Act. As 
Congressman Porter noted, in the state fiscal year 2002, over 
36,000 Nevadans exhausted their regular unemployment benefits.  
And of those claimants, 19,000 went on to receive temporary 
extended unemployment compensation. For the week ending January 
31st, 2003, Nevada reported 31,0092 individuals collecting regular 
UI benefits and 4,100 receiving extended benefits. For the last 
two months we have seen Nevada's unemployment rate tick slightly 
upwards to 5 percent in December of 2002.  This is the first time 
that the unemployment rate has moved upwards since December of 
2001, a concerning trend for us.

	Currently, Nevada's average benefit amount is $232.29 per 
week, and the average duration  for an individual to receive benefits 
is about 15 and a half weeks.  Through the support and incentives 
provided in H.R. 444, if we shorten the duration by even one week, 
the state's trust fund could save approximately $8.4 million.  That 
is a large number by Nevada standards, not a large number by 
Chairman McKeon's standards in California, but when you multiply 
that across the country, you can imagine the savings this incentive 
may translate into. While the personal reemployment accounts would 
not be available to all claimants, we believe the heightened 
interest in such a program would connect more of the unemployed to 
the Nevada Job Connect system and the resources it can provide.

	We appreciate the flexibility provided to states in H.R. 444 
and envision working with local boards on state options and program 
design.  We also greatly appreciate the Administration's recognition 
of the workforce system in general, and Nevada Job Connect in 
particular, to administer this new program. 	The investment of 
the $3.6 billion in additional resources is welcomed and builds on 
the successes contemplated when the Workforce Investment Act was 
written.  It also builds upon worker profiling systems and 
reemployment services states currently provide.

	In April of 2002, Nevada implemented an Automated Claimant 
Call In Letter to select claimants based upon job availability and 
their form occupational codes.  The call in letter matching program 
was later enhanced to include the implementation of an interactive 
voice response unit, which enables Nevada Job Connect staff to 
increase follow-up contacts with UI 
claimants.

	The reemployment services goal was to achieve over 1,400 
entered employments statewide.  However, with the automated 
enhancements and increased claimant contacts, Nevada substantially 
exceeded its goal with over 4,200 entered employments. The Committee 
may want to consider directing a portion of the new funding stream 
of $3.6 billion to reinvigorate or support existing programs that 
are targeted to rapid reentry of the unemployed to the workforce or 
providing governors with the ability to request program waivers where
 appropriate.

	As this legislation wields its way through the congressional 
process, I assure you that our department and the Nevada Job Connect 
system stands ready to assist in any way we can.

	With regards to WIA reauthorization, as you know, Congress 
will be considering several reauthorizations in addition to WIA, 
such as Carl Perkins, Vocational Rehabilitation, and Adult Education. 
TANF, we've already passed.  The timing of these three reauthorizations
 provides an unprecedented opportunity to align programs and services to
 further enhance the one-stop workforce system.

	The system exhibited its capabilities as Nevada Job Connect 
quickly responded to the tragic events of September 11, 2001.  Nevada 
Job Connect partners rallied to assist over 5,500 individuals who 
needed in-person assistance to file for unemployment insurance and
 other related benefits.  We did those at the Culinary Union Hall in 
Las Vegas and the Community College of Southern Nevada in Henderson. 
More recently, Nevada Job Connect partners have assisted with mass 
layoffs at National Airlines, K-Mart, and American Airlines through 
the WIA funded Rapid Response program to enable those faced with job 
loss to reattach to the workforce more quickly.

Secretary Elaine Chao's testimony to this Committee on February 12 
reinforced the notion that WIA requires some fine-tuning and not a 
major overhaul.  The flexibility provided in H.R. 444 should be 
considered in WIA reauthorization proposals and deliberations.


Governor Kenny Guinn, a former businessman, believes workforce 
development is really economic development.  When he launched Nevada 
Job Connect in January 2002, his remarks emphasized the critical 
importance of focusing on our state's businesses' needs.  He simply 
 stated, "If we take care of business, the job, skills development, 
and strong educational system will follow."

	The Workforce Investment Act should have a section devoted 
to business services.  The section should require input from the 
business customer, authorize the provision of the services that meet
 businesses' workforce needs and emphasize the linkage between
 workforce development and the economic development.

Governor Guinn is our state's CEO and CFO.  As such, governors need 
to be designated as the ones in charge of determining how WIA will be
 implemented in their states. And as you have previously heard, the 
size of state and local boards are unwieldy.  WIA must be amended to 
grant governors and local areas greater flexibility in determining 
board memberships that meet their needs, while still requiring a 
private sector majority.  One-Stop partners should serve as resources 
to the boards and not as required board members.

	We must diminish the "silo" aspect of federally funded programs 
and provide governors and localities greater authority to transfer funds
 between programs or at a minimum, a set aside from each "silo" for
 infrastructure support for the One-Stop Centers. All workforce programs 
should run in consistent program years and the federal agencies must 
develop common definitions, data elements, and reporting requirements 
among the programs that provide employment and training services.

	Nevada businesses have expressed a strong need for incumbent 
worker training.  WIA resources need to be flexible to meet this need.
  Nevada's experience with pilot programs has demonstrated that such 
training enables employers to stay in Nevada and supports employee 
retention.

	Finally, the increased demand for local data under the 
Workforce Investment Act must be fully funded.  Businesses demand 
user-friendly localized data.  It is a valuable economic tool that 
is positioned to take advantage of existing and emerging technology.

Mr. Chairman and Members of the Committee that concludes my remarks. 
I'd be happy to answer any questions that you may have.




WRITTEN STATEMENT OF MYLA FLORENCE, DIRECTOR, NEVADA DEPARTMENT OF 
EMPLOYMENT, TRAINING AND REHABILITATION, CARSON CITY, NV  -  SEE 
APPENDIX C


	
Chairman Boehner  XE "Chairman Boehner"  .  We'll hear from all the 
witnesses, and then we'll get into several rounds of questions.

Mr. Brewer  XE "Mr. Brewer"  .


STATEMENT OF ROBERT BREWER, CHAIRMAN, SOUTHERN NEVADA WORKFORCE 
INVESTMENT BOARD, LAS VEGAS, NV

Chairman Boehner  XE "Chairman Boehner"  , Chairman McKeon, Mr. Porter, 
and distinguished Members of the Committee, as previously stated my
 name is Robert Brewer.  I'm the Chairman of the Southern Nevada 
Workforce Board.  I also serve on the State Workforce Board, and I am 
one of the board members of the National Association of Workforce 
Boards.  I am also Chairman of the Board Policy Committee at the
 national level. When I am not wearing all of my Workforce Board hats, 
I am the director, not the senior manager, but the Director of 
Corporate and Administrative Services for Southwest Gas Corporation,
 which is here in Las Vegas.

	I'd like to thank the Members of the Committee for inviting me 
today to testify before you and about my views on H.R. 444, the Back to
 Work Incentive Act.	While I will focus my remarks on specific 
legislation, I would be remiss if I did not express my strong support 
for the locally-based, private sector led workforce investment system
 established under the Workforce Investment Act of 1998, and particularly, 
the vital role that local workforce investment boards play in the 
governance of that system.  It is my hope that the reauthorization of 
WIA and any new workforce initiatives, such as the Personal Reemployment
 Accounts envisioned in H.R. 444, will build upon the WIA system and 
continue to provide local boards with a clearly defined role in the 
design and oversight of such initiatives.

	If I may take a moment, I would like to take this opportunity 
to thank Congressman Porter for introducing this important legislation, 
and for his support of our efforts here in Nevada in building a highly 
skilled workforce.  This proposed initiative has a great potential for
 providing our most vulnerable dislocated workers with additional 
resources that will help them secure new, gainful employment.  It is an
 important effort to assist the over 2 million workers who have lost 
their jobs over the last two years.

	In Nevada, and in Las Vegas in particular, the unemployment 
rate increased in December to 5 percent.  That translates to over 
50,000 people out of work; over 40,000 of whom are looking for work 
in the Las Vegas metropolitan area. While this number is still nearly 
a full percentage point below the national average, it represents a 
worrisome increase in the number of unemployed workers in our state 
and region.

	The good news is that, in spite of the rise in unemployment 
recently, employment in Nevada has grown in all sectors but mining 
over the past year.  Total employment in Nevada reached over 1 million 
last year, up 2.4 percent from the previous year.  Statewide, key 
sectors such as construction, manufacturing, trade, government and 
services have continued to grow.  The bottom line is we must focus our
 energies on connecting unemployed workers with the jobs that are in 
demand.

	H.R. 444 has the goal of helping the most vulnerable of these
 dislocated workers get back to work by providing them with additional
 flexibility, choice, and assistance in their search for employment. The
 eligible recipients who have been profiled typically have higher levels 
of skills deficits, and they will be able to benefit greatly from the 
new education and training opportunities that the personal reemployment
 accounts can provide.  Finding replacement employment with wages that 
can support their families now and provide career paths with upward 
wage growth for the future will also benefit our communities as well.

	In particular, I commend your efforts to make the personal
 reemployment accounts established under the bill a part of the workforce
 investment system by requiring that funds be accessed through the One-
Stop delivery system.  I support the manner in which the funding is
 distributed for the accounts, with 5 percent of funding provided up-
front to the local workforce areas for program startup costs and
 administration, and the remaining amounts drawn down to the indivi-
duals who are eligible in the form of personal reemployment accounts. 
I also support the appropriate role for states in determining 
eligibility for the reemployment accounts and in conducting profiling 
that will further identify workers who are eligible for services. I 
do have several areas of concern that I think, if addressed, would
 significantly strengthen this proposal and ensure its successful
 implementation.

	Our WIA system and local workforce boards provide a ready
 mechanism for providing quality assurance and accountability that 
 cannot be achieved through the states alone.  My biggest concern 
with H.R. 444, as it is now written, is the lack of a clearly defined 
local role for local workforce investment boards, i.e., in determining 
how the reemployment accounts will be implemented, in ensuring 
accountability over the accounts, and in the planning of how these 
additional resources will augment existing resources in the broader 
workforce investment system.

	Although the proposal requires that personal reemployment 
accounts be accessed through the One-Stop delivery system established 
under WIA, local workforce boards do not appear to have any authority 
over the implementation or oversight of this $3.6 billion in new 
funding that will be sent through the workforce system. As written, 
the bill would make local workforce areas financially liable for any 
misexpenditures or misuse of funds after the fact, and provides local 
boards and local elected officials with very little authority up front 
to ensure that resources are used properly or wisely. I would urge you 
to provide the same levels of authority, responsibility, and 
accountability provided to local boards under WIA in this new 
legislation.  There is an accountability infrastructure already 
established in WIA, why should more money be spent to set up something
 parallel?

	There is another accountability feature that I would strongly 
urge the Committee to incorporate in H.R. 444.  Build on the current 
local planning process by requiring the workforce boards to describe 
how personal reemployment accounts would be utilized as part of the 
broader workforce investment system to meet individual worker and 
regional economic needs. The local plans would describe safeguards, 
including how the local boards would identify reputable, high quality 
service providers, and, ultimately, would ensure the wise use of these 
funds at the local level.  Local workforce boards are already doing this 
in WIA.  This is a public stewardship responsibility that we are 
prepared to take on.

	My third suggestion regarding local boards' roles further 
strengthens program accountability once the program is initiated.  
It is aimed at simplifying and speeding up the process and ensures 
that quality assistance is available to eligible recipients as they 
exercise their flexibility and choice of return to work assistance. 
I urge you to utilize the existing WIA infrastructure and processes 
for accessing similar training and support services under the personal
 reemployment accounts.  Doing so will provide greater assurance that
 recipients will identify and receive quality assistance, especially 
if local workforce boards and states are permitted to add to the lists 
of qualified service and training providers. In any case, local boards 
must have a role in the identification and approval of such providers 
to guard against abuses and to ensure quality and accountability within 
the system, particularly if they are to be held liable for these funds.

	I also share your goal that individuals should be given 
flexibility to use resources under H.R. 444 to meet their individual 
needs.  This is particularly important for workers profiled as eligible 
for these services because they are the most vulnerable of the 
unemployed.  There is no cookie-cutter solution for their individual 
needs.  For this reason, we believe there is an important role for
 informed guidance in this process.

	We have spent the last five years building our public workforce
 system, and I believe that local One-Stop systems, in response to the 
policies set by local workforce investment boards, have developed a 
systematic approach to guide unemployed individuals through the WIA 
services presently available. I would urge that you underpin the 
flexibility given to the individual in the bill by requiring that 
helpful occupational guidance and assistance be available to each 
worker to help him/her make choices based on good information and 
complete understanding of the full range of resources and opportunities 
that are available to them. As such, I recommend that you modify the 
proposal to require that each individual accessing a reemployment 
account develop a personal reemployment plan as a condition of 
eligibility for that account. Quality occupational information and 
career counseling should be provided to individuals as they decide 
how to manage their accounts.  This process should not require 
adherence to a rigid plan of action by the individual, but should 
provide workers with an understanding of the wide range of occupational 
and support services available to them.  Having workers understand 
pathways to more upward mobile career paths, including those that may 
include skills training, will lead them to wise use of their 
reemployment account resources.

	I do have one final suggestion.  Under H.R. 444, individuals 
who choose to receive a personal reemployment account are prohibited 
from receiving any further services, except for core services, through 
the WIA system for one full year after receipt of a PRA. While this 
might be appropriate for those individuals who cash out their account, 
or possibly even for those who use their personal reemployment account 
for the purchase of an automobile, this provision ends up being too
 restrictive, and potentially punitive, for those who choose to receive
 services through the reemployment accounts. Again, I remind you that 
those eligible to receive personal reemployment accounts are the most
 vulnerable of the dislocated workers, many of whom have been profiled 
as a result of inadequate education and skills levels.  They are 
likely to need longer-term education and training services in order 
to be competitive in today's job market. Due to this, I would ask 
that you allow local boards to determine packaging of personal 
reemployment accounts, ITAs and other services under WIA for individuals 
who are in need of such assistance, with the exception of those 
individuals who do cash out their reemployment accounts.

Chairman Boehner  XE "Chairman Boehner"  , Chairman McKeon, Mr. Porter 
and other Members of the Committee, again, I commend you for your 
leadership in our nation's workforce investment efforts, and on your
 leadership in the introduction of this important legislation. Here 
in the Las Vegas area, these H.R. 444 resources, in combination with 
those provided through the Workforce Investment Act, would provide us 
with a greatly enhanced ability to help the over 40,000 workers who are
 searching for employment. Nationally, H.R. 444 has the potential for 
providing much needed additional resources for the dislocated workers
 and for our workforce investment system.

	The country's workforce investment boards stand ready to take 
on the responsibility for this initiative as a part of our roles and
 responsibilities over the workforce investment system. I urge you to 
provide the local boards with the clear authority to package these 
resources in ways that will both benefit the workers they are intended 
to help.  In doing so, it will enable our local boards to focus training 
on the key sectors of our local economy that are in high demand and that
 provide workers with the best jobs and career growth opportunities.

	I thank you for this opportunity to address you today.


WRITTEN STATEMENT OF ROBERT BREWER, CHAIRMAN, SOUTHERN NEVADA WORKFORCE
 INVESTMENT BOARD, LAS VEGAS, NV  -  SEE APPENDIX D

	
Chairman Boehner  XE "Chairman Boehner"  .  Mr. Brewer, thank you.

Ms. Lindemenn  XE "Ms. Lindemenn"  .

STATEMENT OF DEBI LINDEMENN, EMPLOYMENT SPECIALIST SUPERVISOR, NORTH 
LAS VEGAS JOBCONNECT, DEPARTMENT O F EMPLOYMENT, TRAINING AND 
REHABILITATION, LAS VEGAS, NV 


I want to thank the Committee for inviting me to testify today. It's a
 personal honor to be in Mr. Porter's presence because I live in the
 Congressman's district.  I want to state that I did not have an 
opportunity to prepare four or five pages. As a supervisor on the 
front line, I certainly have had the opportunity to see firsthand the 
kind of struggles that these families are going through.  We have a 
changing job market in Las Vegas.

	My perspective on what is most needed for people to become 
reemployed involves major childcare issues.  In addition, we have
 transportation issues, where we are cutting back on some of the bus 
services.  This leaves a lot of these folks unable to move around to 
find better jobs or even the inability to move into an area within the 
labor market where they would be better able to become reemployed.

	As stated before, and I agree, training is also a big issue. 
We know that an estimated 15,000 people were laid off as a result of 
September 11th, and although it's stated that visitor figures are up, 
the actual figures show that the city has not really recovered yet. 
With the continuing migration to the Las Vegas labor market we also 
see that the competition for employment remains really high.  When 
people are underemployed, our services are unable to offer a training 
program that would assist them to obtain a better paying wage.


	The people who make up most of our population are in the 
service industry where their unemployment insurance just covers their 
food, clothing, and shelter.  They don't have the additional money for
 childcare or for the additional training needs, or transportation 
should even something as slight as their vehicle breaks down.

	Most of these people do not have a lot of reemployment choices. 
Many have returned to work in the hotel industry but have really become
 underemployed.  So, therefore, this has really limited their finances, 
leaving them to use most of what they have personally set aside in 
their savings just so they can maintain a normal lifestyle.

	I do want to state that the State of Nevada at the present time 
does have a whole complement of services through the One-Stop and the 
WIA partners for the unemployed and that works. 	From what I can 
see as a front-line supervisor, this plan sounds wonderful.  It's a great
 opportunity.  I'm excited to even be on the front lines, but I certainly 
see a need for additional staff in order to handle the case management 
that is going to be needed to individually take care of these people 
that we are most concerned about. And of course, the implementation of 
any new program does take time for the program for work.

	That's all I have prepared today.  So I just want to say thank 
you so much for the opportunity to be here today and to speak on behalf 
of the public that needs your care and your interest so much.






WRITTEN STATEMENT OF DEBI LINDEMENN, EMPLOYMENT SPECIALIST SUPERVISOR,
 NORTH LAS VEGAS JOBCONNECT, DEPARTMENT OF EMPLOYMENT, TRAINING AND
 REHABILITATION, LAS VEGAS, NV  -  SEE APPENDIX E


Chairman Boehner  XE "Chairman Boehner"  .  Ms. Lindemenn, thank you 
for your testimony.  I'm sure we'll have an ample number of questions 
later and you can be very helpful to us.

Ms. Lindemenn  XE "Ms. Lindemenn"  .  Okay.

Chairman Boehner  XE "Chairman Boehner"  .  Mr. Galbreth.



STATEMENT OF ARDELL GALBRETH, DEPUTY BOARD MANAGER AND DIRECTOR OF
 OPERATIONS, SOUTHERN NEVADA WORKFORCE INVESTMENT BOARD, LAS VEGAS, NV

Thank you, Mr. Chairman.  Thank you all so much on behalf of the 
Southern Nevada Workforce Investment Board.  It is indeed an honor 
for me to have an opportunity to speak before you and, of course, our
 Congressman Porter.  I too live in his district and also we go back a 
little way when he was serving on the civilian military council out at 
Nellis Air Force Base.

	I would like to give you my point of view regarding the local 
level, particularly how the services impact youth as well as dislocated
 workers. There is a workforce crisis looming in our nation's future if 
we fail to invest in our youth now.  Earmarking proper resources for 
youth employment and training services would realize our investment 
dividends for decades to come.  This is not a guess, but it's supported
 by credible labor market studies. Since 2000 there has been a 12 percent
 increase in youth who are both jobless and out of school, which translates
 into a near 600,000 increase in this particular population. In 2000 
there was an average of 4.9 million youth between the age of 16 and 24 
who were out of school and out of work. During 2001, the stakes got even
 higher.  It increased to 5.2 million. Now, due to our lazy economy, we
 anticipate a steady increase in youth jobless rates to exceed 7 million
 by the end of this year.  In plain view, children in poverty 
neighborhoods and low-income families have it difficult in the extreme.

	Gentlemen, we need your help, and we need it now.

	As we work to ensure that no child is left behind, we must 
remember that this challenges us, not only to improve our children's 
overall education posture, but their lifelong credit to society. One of 
the primary reasons that many minorities and children from low-income 
families do not achieve the finer goals and rewarding careers is because 
of the huge youth employment gap which extends well into adulthood. For
 example, according to Northeastern University's Center for Labor Market
 Studies, during 2002, youth joblessness surged to 5.5 million for out-of
-school youth between the ages of 16 and 24.

	Now we are all in agreement that education is certainly a high
 priority for our children, but we need to lean forward just a bit for a 
clear view that's beyond the days of school and playground tinkering.  
We need to better prepare our children for success in life. Congress is 
on the verge of cutting over $300 million in youth employment and 
training programs funded by the Workforce Investment Act.  Such funding 
cuts as these stab at the core of low income youth and their hope to 
some day leave the "hood" and enjoy life-quality happiness many of us 
are currently experiencing.

	I ask you, our elected leaders, to take a look at the picture 
from a perspective that if we don't act now to equip our children with 
the proper skill set to become productive adults, our current social 
security retirement system will be crashing down around us soon by the 
year 2020. I urge you to take a strong stance against youth funding cuts 
and support youth funding services at respectable levels as to ensure 
quality delivery of sorely needed youth employment and training services.

Please understand that the time and the need are now. Review the 
numbers.  They speak for themselves.  One out of every four African-
American youths and one out of every five Latino youths between the 
ages of 16 and 24 are out of school, unemployed, and on the streets. 
There is a growing need to raise the visibility of these out-of-school 
youth.  Here in Las Vegas, the fastest growing metropolitan area in the 
nation for over a decade, because the present Administration has zeroed
 funding for youth opportunity grants, the youth in this area and 
throughout the State of Nevada will not be able to tap the benefits 
these grants offer. I have read and have been told that since few youth 
vote, they are not considered in the political formula for elected 
officials.  But I refuse to believe that's the case. I'm confident that
 through people like me, our youth voices will be heard loud and clear, 
that what our congressional leaders need to do is to focus more on 
funding worthwhile programs like job corps centers and youth employment 
opportunity grants that offer our youth a chance in life and not become 
our society's menace.

	To help ensure and secure our nation's most treasured resource,
 today's youth, I recommend that Congress focus its attention on the 
following three items:

	One, significantly investing in our youth employment resources 
by increasing formula grants to help make a realistic difference in the
 quality of life for young people.

	new youth competitive challenge grants are good, but they should
 not be at the expense of states' formula grants to serve those most in
 need.

	funding appropriation for youth opportunity grants for states 
like Nevada that were not in on the ground level for these funds when 
they were initially awarded.  It is essential that you continue these 
youth opportunity grants for states like Nevada.

	Two, introduce and work hard to pass legislation to make youth
 councils mandatory with authority to act with its funding stream.

	Three, the current 30 percent youth funds expenditure requirement 
for out-of-school youth is a good thing as it helped address youth left 
behind in the labor market, but attention must also be paid to ensuring
 adequate funding is available for in-school youth to help prevent them 
from becoming out-of-school youth. Please retain it.

	Strong funding deposits with implementation of these 
recommendations would secure a solid investment for our nation's future, 
youth who are the leading edge of productivity and our most valued 
workforce.

	Now, with regards to dislocated workers, of which many have 
been unemployed for over a year, the view looks just as grim.  House
 Resolution 444, introduced by our own Congressman Jon Porter, is a 
step in the right direction without question to get people quickly back 
to work, but the maximum benefit of $3,000 may not go very far for those
 living in some of our depressed areas. In addition to establishing 
personal reemployment accounts, Congress needs to focus its attention 
on increasing the funding for adults and dislocated programs under the
 Workforce Investment Act.

	Regardless of the amount of supportive services reemployment 
accounts may offer, if jobs are not available, people will not be 
reemployed quickly. Congress is preparing to cut significant funds 
out of the Workforce Investment Act and adult and dislocated worker 
programs. Right now, with our sluggish economy, WIA programs are our 
only hope to offer people opportunity to acquire new skills by 
retraining into demand occupations.  With adequate WIA funding levels, 
along with the new personal reemployment accounts, job seekers will be 
able to effectively tailor their reemployment plans to local area 
industry demands and match their skills with employers' needs for prompt
 reemployment. For example, let's take here in Las Vegas, which was the
 corporate headquarters for the now defunct National Airlines.  Through
 Nevada's JobConnect Connect system, using our National Emergency Grant 
for dislocated workers, we were able to offer training services to 
hundreds of laid off workers to allow them to get the proper training 
and get back to work. In many cases, airline pilots only needed a new 
type rating certification to allow them to sign on with another airline 
 company or a corporate aviation agency.  In some cases, pilots even 
increased their annual salary with this new training.

	The bottom line, gentlemen, of my testimony is that if our 
intent is to return people to work quickly, we need to earmark workforce
 funding levels to allow for adequate training to upgrade the skills of 
these job seekers to match their employment demands.  Our National 
Airlines project is a fine example of how adequate training can get 
people back to work quickly.

	I recommend that Congress view H.R. 444 as a supplement to the
 Workforce Investment Act and not a one-time reemployment stopgap.  It 
is important that Congress in both Houses work to keep WIA as our 
nation's primary vehicle to deliver effective employment and training 
services to both job seekers and employers by appropriating adequate 
funding to do the 
job right.

	Gentlemen, once again, thank you so much for allowing me the
 opportunity to address these issues that are facing our particular 
nation.


WRITTEN STATEMENT OF ARDELL GALBRETH, DEPUTY BOARD MANAGER AND DIRECTOR 
OF OPERATIONS, SOUTHERN NEVADA WORKFORCE INVESTMENT BOARD, LAS VEGAS, 
NV - SEE APPENDIX F

	
Chairman Boehner  XE "Chairman Boehner"  .  Mr. Galbreth, thank you 
for your testimony.  I'm sure you've heard the old adage that the 
President proposes and the Congress disposes. The suggestion you 
make about the youth employment opportunity grants and the funding 
streams as well as the WIA funds, in my view, are not under any 
serious threat   XE "Chairman Boehner"  in reduction.  So I wouldn't 
spend a whole lot of time worrying about it, but if I were you, I 
would make sure that Congressman Porter gets up to speed on what 
those issues are and let him watch them for you.

Mr. Galbreth  XE "Mr. Galbreth"  .  Thank you. That's good to hear 
Chairman Boehner  XE "Chairman Boehner"  .  Let me just thank all the 
 witnesses for their testimony.  This is a real opportunity for us to 
talk to people, not only about the reemployment accounts, but also 
about WIA.  As I mentioned before, Congressman McKeon kind of 
inherited WIA, and redid it after I took a sabbatical from the 
Committee and served in the leadership for two years.

	Back in the 1980s, I realized as a state legislator that we 
had many programs at the federal, state, and local level to assist 
workers who needed training, who were unemployed, who needed education, 
none of which were coordinated in any way, shape, or form. And I remember 
 putting a bill together back in the early nineties as a new Member of 
 Congress that would collapse these programs into a handful of funding 
streams in order to better coordinate the services and the funding that, 
in my view, is there in order to help these workers.

	As I mentioned, the result of all of that and Mr. McKeon's work 
became WIA.  We are very big supporters of seeing the One-Stop system 
work effectively.  And as we get into the reauthorization this year, 
it's our intent to work with the governors and the local Workforce 
Investment Board to fine-tune the legislation to see that these 
boards work better and that they be effective. There is no better 
example of how they don't work than in my own home state of Ohio, 
and so I've paid close attention to the problems that we've had.

	Before I get into WIA, let me talk a little bit about these 
personal reemployment accounts.  All of the states have a profiling 
system as mandated under federal law to take a good profile of who the
 unemployed are, and what their needs are. When Secretary Chao was at our
 Committee last week, one of our colleagues suggested that this profiling
 system isn't as up to speed as it should be. Do you want to tell us a 
little about your system?

Ms. Florence  XE "Ms. Florence"  .  Thank you, Mr. Chairman.  I'd be 
happy to talk about Nevada's experience and worker profiling.

	I don't think Nevada is unusual in that many states have 
struggled with the changing characteristics of the unemployed in 
updating their profiling system to consider those characteristics 
in terms of identifying those most likely to exhaust.

	I believe our system is probably about 25, 30 years old, Debbie?

Ms. Lindemenn  XE "Ms. Lindemenn"  .  Yes.

Ms. Florence  XE "Ms. Florence"  .  When the director doesn't know 
anything, defer to staff that know everything.

Chairman Boehner  XE "Chairman Boehner"  .  Trust me, trust me.  
Members of Congress could never survive without staff.

Ms. Florence  XE "Ms. Florence"  .  But in talking with other states, 
I think, as I indicated, it's not uncommon.  H.R. 444 does provide up 
to 2 percent to make changes in states' profiling systems and the 
automated support behind that.  I think the difficulty is that any 
time you are dealing with technology, as the Chairman knows, I'm sure, 
there are proposals that you have to go through from any number of 
vendors who all claim they have the latest and greatest profiling 
system.  They all need to be evaluated.  Nevada is very fortunate in 
that we work very closely with local partners and we would want them 
to be part of that process.

	That's why I suggested the Committee might want to consider 
providing governors with the ability to request waivers if they think 
they have an existing program that can accomplish the same kind of 
objective as H.R. 444. That being said, our overall mutual interest 
is getting people who are unemployed who may likely exhaust back to 
work quickly.

Chairman Boehner  XE "Chairman Boehner"  .  The reason for the 
question was to get a feel from you of how your profiling system 
works.  Because as we envision these reemployment accounts working, 
the states are going to have to identify those people most likely 
to be helped the most by them.

	If you take up the maximum grant, we could cover about 1.2 
million workers around the country.  We have about 4 million unemployed.  
So, obviously, there aren't enough funds for all of those who are 
unemployed.

	And my concern or my question is really focused on do you 
think we have enough profiling information to determine which of the
 unemployed would most likely be helped or could succeed with these.

	Debbie, you want to comment?

Ms. Lindemenn  XE "Ms. Lindemenn"  .  There is a plan.  Of course, 
it hasn't been put into effect, and that has a lot to do with budget.  
But the statistical model of how these folks are selected does need 
to be updated.  There are factors that have changed in the last 15 
to 20 years. At present we are looking at how we could update the 
statistical model, but that has been put on the back burner.

Chairman Boehner  XE "Chairman Boehner"  .  So if we have these new 
accounts, I think we are going to give states the flexibility to help 
develop the parameters around which people they may select, but I'm 
trying to get at how it would work here in Nevada.   XE "Chairman 
Boehner"  How would you envision it working?

Ms. Lindemenn  XE "Ms. Lindemenn"  .  Well, you know we have changes 
in our industries.  What's needed is a statistical model of how these 
people are selected, so our research and analysis team needs an 
availability of funds to be able to update how those selections are 
made.  And right now I couldn't give you the bare bones of what is 
needed.  But I do know that the statistical model is in an outdated 
section right now.  There is a plan involved, but it's on the back 
burner.

Chairman Boehner  XE "Chairman Boehner"  .  You made a point of wanting 
us to make it clear as we move this bill, that the local WIA boards 
will run the programs, and there will not be a separate system.  Trust
 me, there aren't three Members of Congress more determined than we are 
to make these One-Stop Centers work and to bring as many of these 
funding streams together and to run them through the local workforce
 investment boards. I appreciate your suggestions, and we will certainly 
take that into account and try to make it clear when we move the 
legislation that we expect it to be operated through the One-Stops.

	Mr. Brewer, let me ask you about how the One-Stops are working 
here and the relationship between the boards, the private sector members,
 and the public sector.   XE "Chairman Boehner"  I won't refer to the
 bureaucrats or anything like that.  Mr. Brewer  XE "Mr. Brewer".  
I'll be happy to respond.  You threw a number of issues out there, 
and I'll try to answer them in order.

	Starting first with the relationship of the board and the 
One-Stop operation itself, we feel we have a very strong local 
relationship with the One-Stop operation.  The board in its role 
provides the general policy and guidance, and we have what we feel 
are good administrators that are working in that system to really 
operate it according to its intent, which is to provide benefit to 
both local employers and folks that are seeking employment.

	Now, could it be more efficient?  Yes, it could.  
Chairman Boehner  XE "Chairman Boehner"  .  How would we achieve that?

Mr. Brewer  XE "Mr. Brewer"  .  This efficiency would come from some 
of the things that Myla has already brought up in her presentation, 
and we probably talked around this morning.  There really needs to 
be a serious look at the partners as they operate and are involved 
in the One-Stop Centers.  They come willing, but a lot of times they 
come with restricted finances in terms of the way that they can use 
the monies that are provided for their individual agencies. A room 
full of people with good intent without the proper funding leads to 
a level of efficiency and effectiveness sometimes that is less than 
desired.  And that's our current situation.

	We have a lot of good people working very, very hard.  There 
are a lot of different people with a lot of experience, and many of 
the people are doing a good job.  But sooner or later, the funds get 
short, and you have to make some decisions that you wouldn't otherwise
 make because of the funding.  So that really needs to be looked at.

Chairman Boehner  XE "Chairman Boehner"  .  Now, would these be agencies
 funded by the federal government out of different pots of funds?

Mr. Brewer  XE "Mr. Brewer"  .  Yes, they're funded by the federal 
government from different pots, and they are obligated by the WIA 
Act to be part of the One-Stop. But there is no requirement or 
obligation to appropriate part of the funds to support your part of 
the partnership.

Chairman Boehner  XE "Chairman Boehner"  .  We have seen collaboration 
work in wonderful ways in some areas.  I was in Dayton, Ohio, part of 
which is now in my district. Dayton has a model One-Stop that was really 
a creative waiver over ten years ago. It was incredible to see the 
cooperation and the collaboration all focused on the customer, not only 
the unemployed, but those who need more training and more education to 
improve their job skills not only maintain their current employment, 
but to try to advance up the economic ladder towards a better job.

	I have been asking myself how can we encourage more collaboration?  
I have 11 brothers and sisters, and our parents would come home saying, 
"You all are going to get along."  I don't know how we write a law that 
says that.

Mr. Brewer  XE "Mr. Brewer"  .  I don't know how you write a law to do 
that either.  We have a strong corroborative effort here that you'll see 
as you go through the One-Stop.

	I think folks come to the table knowing that they have 
restrictions, and that gets us back to things that are even outside 
of the Committee.  But you have to revisit how you are going to fund 
these types of operations over the long haul.  I don't know how we get 
there.  We have to talk about it.

Chairman Boehner  XE "Chairman Boehner"  .  Please send Mr. McKeon, Mr. 
Porter and I a memo in which you outline some of this in more detail.

Ms. Florence  XE "Ms. Florence"  .  There are two issues here.  First, 
I want to compliment Chairman McKeon for the vision of WIA, and I really
 believe that in Nevada we are known as one system, or one brand. Over 
time I think people will recognize Nevada JobConnect as the place for 
business and workforce services unlike other states where there may be
 20 or 30 different names of partners within the system.

	With regard to funding, I hate the term "mandatory partners."  
I'm sorry, Mr. Chairman.  It's just an oxymoron in my mind.  But if a 
portion of the federal agencies funding a mandatory partner were put 
into the infrastructure of the system, then you'd have stronger 
collaboration, in my mind.

	And, secondly, with regard to the workforce boards, as I 
mentioned, they are far too large. I notice the Administration now 
has a proposal to restructure the state boards to include the partners 
of the system, meaning bureaucrats, with a business leader.  In my mind, 
that is taking five steps backwards.

	Our state board is business driven.  A business member of that 
board leads every subcommittee.  It includes the business members of 
local boards on the various subcommittees. We are moving in the right
 direction here under business leadership.  My staff and I merely lend 
support to those activities.  We don't drive them.  We don't attempt to 
drive them.

Chairman Boehner  XE "Chairman Boehner"  .  You're one of the few states 
where that would happen.

Ms. Florence  XE "Ms. Florence"  .  I think that's the way it ought to 
happen.

Mr. Brewer  XE "Mr. Brewer"  .  That's right.

Ms. Florence  XE "Ms. Florence"  .  We have a marketing committee that 
is led by business people with a marketing strategy.  We have a committee 
on employment of persons with disabilities that, again, is led with 
business members.  A committee on finance, budgeting, the staff isn't 
making budgeting determinations, our business led members are.  And that 
has to happen at both the state and local level.

	Thank you.

Chairman Boehner  XE "Chairman Boehner"  .  I couldn't agree with you 
more.

Mr. McKeon  XE "Mr. McKeon"  .

Mr. McKeon  XE "Mr. McKeon"  .  Thank you, Mr. Chairman.

	The reason we left the room is that "Chairman" Porter received a
 message that the Cannon House Office Building had been evacuated.  So he 
and I made a call and found out that it wasn't a terrorist.  It was a 
leak, and that set off the alarm, so they evacuated.  But it gets touchy 
when these kinds of things happen.  With instant communication, it works.  
Mr. Porter  XE "Mr. Porter"  .  Unless they forget to update their 
recording, but otherwise the message worked.

Mr. McKeon  XE "Mr. McKeon"  .  Anyway, I missed some of the questions.  
Mr. Brewer had said he was a little nervous, he hadn't done this before, 
but I want to commend you. Your testimony was excellent.

Mr. Brewer  XE "Mr. Brewer"  .  Thank you.

Mr. McKeon  XE "Mr. McKeon"  .  And I don't say that just because you're
 wearing cowboy boots. Before I got involved in politics, I was in the 
western wear industry.  And when I got in Congress, I started a boot 
caucus.  I really like people who wear boots.  And I always check that 
out.

	We will really look at your testimony.  All of you have been 
very, very helpful. I wish all my hearings could be like this.  You know, 
when we're in Washington, we are up there on a pedestal, and the 
Chairman has a big chair, and we're looking down at people.  I think 
that is really intimidating.  We have a lot more Members present and all 
want to ask many questions, and if you have cameras in the room, it 
really gets exciting, but here it's more intimate.

Chairman Boehner  XE "Chairman Boehner"  .  That's just an invitation 
for Members to talk longer.

Mr. McKeon  XE "Mr. McKeon"  .  This forum is really where we can learn 
what is going on.  I appreciate your testimony and the opportunity to 
be here.

	Thank you for giving me the credit for writing this bill, which
 includes the One-Stops, but as the Chairman mentioned, he was involved 
in it, and prior to his tenure the former Chairman, Mr. Goodling was 
involved.  When we won the majority and I became Chairman of the 
Subcommittee on 21st Century Competitiveness, it was handed over to me.  
So there had been a lot of work done before, and I was able to finish 
it up and get it passed.

	The objective was to take 160 federal job-training programs and
 combine them into four, and give the power to the local communities 
where "the rubber meets the road" and to really get things done.  We 
weren't successful in that.  We got a lot of "flack" and we had to 
regroup and go back to the next Congress.  We cut 50 federal job-training
 programs down to the three local block grants. But every five years 
it's very good that we have a chance to look at it and say, "Where are 
we going?  What can we do better"?  I'm happy we are going to be able to 
take a tour and see the programs that you have here. 

	But when we all get together in Washington, we have a vision of 
what we'd like to see, and then write a bill.  Then it goes through the
 process of amendments and so forth, and we finally get it passed in the 
House, and perhaps the Senate passes something similar.  And then we get
 together and try to work out a compromise, achieve that end, send it to 
the President, and he signs it.

	Then the bill goes to the departments that write the regulations, 
and somewhere down the line, a bill that finally gets to the point to 
where you can do something with it.  And it takes a few years from the 
time those regulations are all written to setting up the One-Stops.  And 
as soon as that's done, we say, "Whoa, we're going to reauthorize and 
going to change everything."  We just got started!

	So let me tell you one thing, we are not going to throw out WIA 
and start over from scratch.  We're just going to try to improve on what 
is out there, and you are not going to have to say, "Wait a minute.  
JTPA is gone, and now WIA is gone, and we're going to start over again." 
 That's not going to happen.

	You have given us some very good recommendations that we can 
look at.  I think the Personal Reemployment Act, acts as a supplement.  
This will help stimulate people that are hard to employ and give some 
of them a little extra help. The 15-and-a-half-weeks of benefits, as 
you said, total up to about $3,600, and this is an additional $3,000.  
That provides quite an impact for help, and it should be something that 
is really positive.

	We had a hearing in Washington.  We got beat up a lot. You know, 
"How come you're not doing this and this and this?"  And I thought, "Why 
don't we concentrate on what we are doing and get it done and get it to 
where the people really need it, then we'll focus on some of these other
 things." But I couldn't believe we were getting beat up when you provide 
$3.6 billion to help people.  Why don't we just come together and focus, 
and get it done. Then if more is needed, get it, because you made good 
points about needing additional monies.

	Does the memo that you are going to send us tell how the One-Stop 
is funded now?

Mr. Brewer  XE "Mr. Brewer"  .  We have an understanding with the board 
and a collaborative agreement with all of the partners, and each one of 
the partners brings, "an appropriate amount of funding".

Mr. McKeon  XE "Mr. McKeon"  .  If you have one partner bringing 20 
percent and another partner bringing 2 percent, and they say, "Well, 
we can't bring 20 percent because we're using our money somewhere 
else on some other things, and although we want to help we really 
don't have the resources."

Mr. Brewer  XE "Mr. Brewer"  .  Right that's where the collaborative 
effort comes in.  Yes, their situations might differ, but the partners
 just work it out among themselves.

Mr. McKeon  XE "Mr. McKeon"  .  I come from a family of five kids, 
and we were all in business together, and I understand.  We all paid 
ourselves the same amount of money.  And you'd always look over and 
think that one brother was not working as hard as the other.  So I 
understand how that works, but if you could address some specifics in 
that memo, I think that would be very helpful to us  XE "Mr. McKeon" 
as we go through this WIA reauthorization.  I made a lot of notes on 
your statements, and when we get back we'll really look into this.

	I hope you will stay in close communication with us as we go 
through the WIA reauthorization.

Mr. Brewer  XE "Mr. Brewer"  .  It would be my pleasure.

Mr. McKeon  XE "Mr. McKeon"  .  That would be great.

	As Florence mentioned, there is a difference between Nevada and
 California.  You have the real advantage here of a few million people 
versus 30 million people.  California is like a country unto itself.  
We have full-time legislators that really want to justify what they do,
 so they pass lots of laws, and everything gets complicated for 
everybody.

	Our goal is to get as much authority down to the local area as 
we can, whether it be workforce investment or H.R. 1 or whatever; we're
 working on that.  That's our goal in this Committee, because we don't 
think that all wisdom and all abilities to handle all problems reside in
 Washington.  But the resources all come from you anyway when we take out 
a portion, in some cases a bigger portion than others, and then give it 
back that way.

	One of the problems if you came into the system late is you're 
are not getting your fair share.  In California, the same thing.  We 
send about 12 percent of the resources and get back about 10.  That's 
billions of dollars every year.  Is there any press in the room?

Chairman Boehner  XE "Chairman Boehner"  .  Probably.

Mr. McKeon  XE "Mr. McKeon"  .  I'm a Westerner, so my solution was to 
take the Northeast and add it to Canada and I think that's the only time 
I said that in public.

Chairman Boehner  XE "Chairman Boehner"  .  The Northwest would have to 
say something about California.

Mr. McKeon  XE "Mr. McKeon"  .  They sure would.  But when you start 
talking about money, all of this is really decided in the other body. 
 California has 36 million people, 53 Congressmen, and two Senators.  
Delaware has 600,000 people, one Congressman, and two Senators.  So in
 Connecticut, Massachusetts, Rhode Island, and New Hampshire, the 
funding for a lot of these programs is very hard to even out when people 
are leaving those areas and coming to Nevada, California, Arizona, and 
Texas.  I'm just moaning about that because that's a problem that we 
deal with and feel the effects of.

Mr. Galbreth  XE "Mr. Galbreth"  .  Definitely.

Chairman Boehner  XE "Chairman Boehner"  .  It is an institutional 
problem.

Mr. McKeon  XE "Mr. McKeon"  , we had language in the welfare 
reauthorization bill last week that would require TANF to work 
through WIA with regard to employment, training, et cetera.  Would 
you care to discuss that?

Mr. McKeon  XE "Mr. McKeon"  .  Every time somebody loses a job or 
wants to improve their marketability, our vision is to see everything 
go through the One-Stop.  But everybody builds his or her own little 
kingdom, and it's hard to pull everything together.

	But that is our ultimate vision.  We don't have total 
jurisdiction.  The welfare reform bill went through five different 
Committees and we had a big part of it, and Ways and Means had a big 
part of it. But we have some limited jurisdiction in this because all 
of it doesn't go through our Committee. If we did, our goal would be 
to have everything would go through that One-Stop.

Chairman Boehner  XE "Chairman Boehner"  .  One of the reasons we had a
 proliferation of job training and retraining programs is because each
 Committee had its own programs based on its issues. For example, the 
Ways and Means Committee deals with trade issues, and therefore you 
have the Trade Adjustment Act that we don't have jurisdiction over.

	We'd still like to collapse all of these various programs if we 
could get some fellow Committees to cooperative a little bit more.  
Because I think One-Stops as people get more used to them are going to 
attract more partners. And what I mean by that is that most of our 
colleagues now understand the One-Stops are here, and the creation their 
own new programs is going to be met with great resistance, not only in
 Congress but by the Administration.

	So, as we get into it this year, I don't know how much progress 
we'll be able to make in terms of more programs being collapsed into 
those funding streams, but speaking both for Buck and myself that would
 certainly be our goal.

Mr. Porter  XE "Mr. Porter"  .

Mr. Porter  XE "Mr. Porter"  .  I have a couple of comments.

	First, I think Myla's cooperation in our business community with
 workforces is a real plus for Nevada.  We have a real tight group of 
folks that are working together, unlike some of the larger areas.  I 
think we should be commended here in Nevada for that, and thank you for 
your leadership.

	We talked about terminology a little bit ago.  I'd sure like to 
see the word "profile" eliminated from our vocabulary also.  I learned 
long ago, and I sensed at our first hearing that with political 
adversaries it isn't about what's best for the communities, but what is 
best for the party.  So I anticipate they're going to be using this word
 "profiling" in a negative sense when they speak about the reemployment 
bill.  So we, as an institution, need to find a new word instead of
 "profiling".

	Debi, thank you for your comments, and I know I missed part of 
the discussion when I was out in the hallway.  You're on the front line 
every day, and you see the folks that have challenges.  Hopefully when 
this passes and the administrative "regs" are taken care of, are there 
some areas that we can address to simplify it, to make it easy for you 
to make it easy for your customers?  What information should we send to
 our staff? Are there some areas that come to mind?  I know you mentioned
 transportation and childcare.  Can you be more specific?

Ms. Lindemenn  XE "Ms. Lindemenn"  .  One of things we had talked about 
while you were out in the hallway was determining the statistical model 
or updating our statistical model to select folks. There are times when
 we get numerous people in the office that really have no need for our
 service, I think Myla can agree, and with some of our outdated 
statistical modeling we leave out the people that have the need.  And 
this becomes a challenge because we all know that negative comments 
about services can change people's views.

Mr. Porter  XE "Mr. Porter"  .  I understand and well said, that from a
 logistics delivery perspective proper statistics make sure the proper
 information is disseminated. But what about making sure a person gets 
a check when they need it, and fast?  What can we do to make sure that 
there's simple, fast delivery to these families?

Ms. Lindemenn  XE "Ms. Lindemenn"  .  In the State of Nevada, I can 
honestly tell you that with the many people that are moving into our 
state from the East to the West, we have a staffing issue.  Over the 
past twelve years I have seen that happen continually.  More and more 
folks move in, but staff doesn't increase, thus causing some delays.

	I think rules and regulations are in place and certainly 
governed, but without the manpower to take care of those rules and
 regulations, the persons out there waiting for the check are kept 
waiting.

Mr. Porter  XE "Mr. Porter"  .  I think it's important to mention that 
my wife did a radio program this morning and many folks who were 
listening were not very excited about the 15-and-
a-half week extension program. I think it's important to emphasize 
that we save $8.4 million by literally one week, that's substantial.  
I didn't know the number when I decided to support and be a part of 
this, but that figure is compelling.  It also means that this single 
mom has a job sooner, she gets to work some, but saves something for 
the system.  That is a very compelling argument, especially for our 
colleagues in Washington.  I can imagine what that would mean nationwide 
if we could save one week for these families.

Ms. Florence  XE "Ms. Florence"  .  It would be substantial.

Mr. Porter  XE "Mr. Porter"  .  My last comment is, as we talked about 
our friends in the Northeast and on the East Coast, we are under funded 
in our education system because the East controls the spending, but as 
their population moves west, they keep their education dollars. But on a
 lighter note, today the headline in the paper said a Member wants to 
rename Nevada, East California.  If I were there, I would vote no, 
absolutely!

	Thank you all very much for your input.

Chairman Boehner  XE "Chairman Boehner"  .  Let me just comment on Mr.
 Porter's last comment about the education funding.  
We, as one of the authors of No Child Left Behind worked diligently 
to try to ensure that all of the new money since the passage of the 
bill would, in fact, be directed at high poverty areas.  There's no 
question that over the last 15 years we held states harmless.  In other 
words, they couldn't lose their funds regardless of what happened to 
their population, especially amongst those disadvantaged in their 
states. And so all of the new money is much more targeted toward high 
poverty areas.  And as a result, we are beginning to see a pretty 
significant shift of where those federal education dollars are going, 
which certainly pleases me.

	With that, let me thank our witnesses for your testimony.  I'm 
sure that Mr. Porter, or his staff and my staff will likely be back in 
touch with you to flush out some of the ideas that you've presented.  
But we really do appreciate your testimony.  It's been very helpful.

	And I want to thank those of you in the audience who took the 
time to come and participate with us today as well.

	With that, the hearing is adjourned.



Whereupon, at 10:55 a.m., the Committee was adjourned.













APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN JOHN BOEHNER, 
COMMITTEE ON EDUCATION AND THE WORKFORCE











APPENDIX B - WRITTEN STATEMENT OF CONGRESSMAN JON PORTER, 
COMMITTEE ON EDUCATION AND THE WORKFORCE











APPENDIX C - WRITTEN STATEMENT OF MYLA FLORENCE, DIRECTOR, NEVADA 
DEPARTMENT OF EMPLOYMENT, TRAINING AND REHABILITATION, CARSON CITY, NV











APPENDIX D - WRITTEN STATEMENT OF ROBERT BREWER, CHAIRMAN, SOUTHERN 
NEVADA WORKFORCE INVESTMENT BOARD, LAS VEGAS, NV 










APPENDIX E - WRITTEN STATEMENT OF DEBI LINDEMENN, EMPLOYMENT SPECIALIST
 SUPERVISOR, NORTH LAS VEGAS JOBCONNECT, DEPARTMENT OF EMPLOYMENT, 
TRAINING AND REHABILITATION, LAS VEGAS, NV 










APPENDIX F - WRITTEN STATEMENT OF ARDELL GALBRETH, DEPUTY BOARD 
MANAGER AND DIRECTOR OF OPERATIONS, SOUTHERN NEVADA WORKFORCE 
INVESTMENT BOARD, LAS VEGAS, NV




Table of Indexes



Chairman Boehner, 1, 4, 5, 9, 12, 14, 17, 18, 19, 20, 21, 22, 23, 
24, 26
Mr. Brewer, 9, 19, 20, 21, 23
Mr. Galbreth, 17, 24
Mr. McKeon, 5, 21, 22, 23, 24
Mr. Porter, 4, 21, 25, 26
Ms. Florence, 6, 17, 18, 20, 21, 26
Ms. Lindemenn, 12, 14, 18, 19, 25



 
</pre></body></html>
